Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 CONNECTICUT OFTEN DID NOT
   COMPLY WITH FEDERAL
    ADOPTION ASSISTANCE
      REQUIREMENTS


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Gloria L. Jarmon
                                               Deputy Inspector General

                                                     November 2013
                                                     A-01-12-02507
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Connecticut often did not comply with Federal requirements in claiming adoption assistance
payments for Federal reimbursement. In addition, Connecticut frequently could not provide
adequate documentation that it had performed required background checks. As a result, we
estimated that Connecticut received at least $17 million in unallowable adoption assistance
payments, and the safety of an estimated 2,862 children may have been at risk.

WHY WE DID THIS REVIEW

A prior Office of Inspector General review found that Connecticut’s Department of Children and
Families (State agency) claimed Federal reimbursement of adoption assistance payments to
children who did not meet income eligibility requirements. In addition, Connecticut’s A-133
Single State Audit found that the State agency did not always document criminal record checks
adequately. When a State agency fails to comply with Federal adoption assistance payment
requirements, Federal funds are unallowable. When a State agency fails to maintain evidence of
background checks, not only are Federal funds at risk, but the safety of children placed in foster
and prospective adoptive families may also be at risk. Therefore, we conducted this review to
address background checks and other Federal requirements.

Our objectives were to determine whether the State agency complied with (1) Federal
requirements in claiming adoption assistance payments for Federal reimbursement and
(2) Federal and State requirements for performing adoption assistance program background
checks.

BACKGROUND

The Department of Health and Human Services, Administration for Children and Families
(ACF), Children’s Bureau, administers the adoption assistance program established by
Title IV-E of the Social Security Act (the Act). The adoption assistance program supports the
timely placement of children with special needs who would otherwise be difficult to place with
adoptive families. Federal and State Governments share the costs of administering the program,
which include monthly subsidies to adoptive families to assist with the care of eligible children.
Federal regulation requires retention of records, including documentation to support the
eligibility of claimed Federal reimbursement.

In Connecticut, the State agency administers the Title IV-E adoption assistance program.
ACF approved the State agency’s Title IV-E plan, which cites Federal law, Connecticut General
Statute, and Regulations of Connecticut State Agencies regarding background check
requirements for foster and prospective adoptive families.

Our audit covered $49,481,645 that the State agency claimed for reimbursement of adoption
assistance payments on behalf of 4,566 children during fiscal years (FYs) 2009 and 2010. We
sampled 291 adoptee payment records totaling $4,062,782 in claimed reimbursements for
compliance with Title IV-E requirements. We evaluated compliance with selected Title IV-E
adoption assistance requirements and subjected 291 sampled adoptee payment records


Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   i
(1 sampled record per child) to focused auditor review to determine whether the State agency
provided adequate support for compliance.

WHAT WE FOUND

The State agency did not always comply with (1) Federal requirements in claiming adoption
assistance payments for Federal reimbursement and (2) Federal and State requirements for
performing adoption assistance program background checks. Specifically:

    •   For 110 of the 291 sampled records, the State agency provided inadequate documentation
        supporting the allowability of payments totaling $1,277,914 in FYs 2009 and 2010. On
        the basis of our sample results, we estimated unallowable payments of at least
        $17,499,083 during this period.

    •   For 185 of the 291 sampled records, the State agency provided inadequate documentation
        that required background checks had been performed. On the basis of our sample results,
        we estimated that the safety of 2,862 children may have been at risk.

The State agency claimed ineligible adoption assistance payments because it did not always
follow its established procedures for ensuring that claims met Federal requirements for financial
eligibility, background checks, and adoption assistance agreements. In addition, the State agency
did not have adequate controls in place to ensure that the required background checks were
completed for prospective foster and adoptive families and the documentation to support the
required background checks was retained.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   refund to the Federal Government $17,499,083 in estimated unallowable payments
        claimed without adequate documentation;

    •   discontinue claiming Title IV-E adoption assistance reimbursement for the children
        identified in the 110 sampled adoptee payment records;

    •   strengthen and implement controls to ensure full compliance with financial and other
        eligibility requirements; and

    •   strengthen and implement controls, such as but not limited to accurate and appropriate
        checklists, to ensure full compliance with background check requirements.

STATE AGENCY COMMENTS

In written comments on our draft report, the State agency stated that it would resolve all
outstanding issues with ACF.



Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   ii
                                                    TABLE OF CONTENTS

INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objectives ...............................................................................................................................1

      Background ............................................................................................................................1
          Title IV-E Adoption Assistance Program .....................................................................1
          Connecticut Department of Children and Families .......................................................2

      How We Conducted This Review ..........................................................................................2

FINDINGS .....................................................................................................................................2

      The State Agency Claimed Unallowable Payments ...............................................................3
           Inadequate Financial Eligibility Documentation ...........................................................3
           Lack of Background Check Documentation .................................................................4
           Inadequate Adoption Assistance Agreement Documentation .......................................5

      Inadequate Background Checks May Have Placed the Safety of Children at Risk ...............5

RECOMMENDATIONS ...............................................................................................................6

STATE AGENCY COMMENTS ……………………………………………………………… 6

APPENDIXES

      A: Historical Background Check Requirements ...................................................................7

      B: Audit Scope and Methodology .........................................................................................9

      C: Sample Design and Methodology...................................................................................11

      D: Sample Results and Estimates ........................................................................................13

      E: State Agency Comments ……………………………………………………………... 14




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)                                               iii
                                               INTRODUCTION

WHY WE DID THIS REVIEW

A prior Office of Inspector General (OIG) review found that Connecticut’s Department of
Children and Families (State agency) claimed Federal reimbursement of adoption assistance
payments to children who did not meet income eligibility requirements. 1 In addition,
Connecticut’s A-133 Single State Audit found that the State agency did not always document
criminal record checks adequately. When a State agency fails to comply with Federal adoption
assistance payment requirements, Federal funds are unallowable. When a State agency fails to
maintain evidence of background checks, not only are Federal funds at risk, but the safety of
children placed in foster and prospective adoptive families may also be at risk. Therefore, we
conducted this review to address background checks and other Federal requirements.

OBJECTIVES

Our objectives were to determine whether the State agency complied with (1) Federal
requirements in claiming adoption assistance payments for Federal reimbursement and
(2) Federal and State requirements for performing adoption assistance program background
checks.

BACKGROUND

Title IV-E Adoption Assistance Program

The Department of Health and Human Services, Administration for Children and Families
(ACF), Children’s Bureau, administers the adoption assistance program established by
Title IV-E of the Social Security Act (the Act). The adoption assistance program supports the
timely placement of children with special needs who would otherwise be difficult to place with
adoptive families. Federal and State Governments share the costs of administering the program,
which include monthly subsidies to adoptive families to assist with the care of eligible children.
Federal regulation requires State agencies to retain records supporting the eligibility of claimed
Federal reimbursement.

The Federal Government pays its share of a State’s adoption assistance payments based on the
Federal medical assistance percentage (FMAP), which varies depending on the State’s relative
per capita income. The American Recovery and Reinvestment Act of 2009, section 5001,
established temporary Title IV-E FMAP increases applicable to Federal fiscal years (FYs) 2009
and 2010.




1
 Review of Connecticut’s Title IV-E Adoption Assistance Costs for State Fiscal Years 2002 Through 2004
(A-01-06-02506).



Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)           1
Connecticut Department of Children and Families

In Connecticut, the State agency administers the Title IV-E adoption assistance program. The
State agency’s stated mission is to protect children, improve child and family well-being, and
support and preserve families. The State agency’s mission statement says that these efforts are
accomplished by respecting and working within individual cultures and communities in
Connecticut and in partnership with others.

For FYs 2009 and 2010, Connecticut’s Title IV-E FMAP was 56.2 percent. Throughout this
report, we refer only to Federal share (i.e., FMAP) for all dollar amounts. During FYs 2009 and
2010, the State agency claimed $49,481,645 for adoption assistance payments.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $49,481,645 that the State agency claimed for reimbursement of adoption
assistance payments on behalf of 4,566 children during FYs 2009 and 2010. We focused our
review on the risk areas we had identified in a prior OIG Title IV-E review and A-133 Single
State Audit findings in Connecticut. We evaluated compliance with selected Title IV-E adoption
assistance requirements by reviewing 291 sampled adoptee payment records 2 with payments
totaling $4,062,782 and their supporting documentation. This report does not represent an
overall assessment of all claims submitted by the State agency for Title IV-E reimbursement.
Rather, the report focuses on the State agency’s compliance with Title IV-E requirements for
financial eligibility, adoption assistance agreements, and background checks.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

ACF approved the State agency’s Title IV-E plan, which cites Federal law, Connecticut General
Statute, and Regulations of Connecticut State Agencies regarding background check
requirements for foster and prospective adoptive families. Appendix A details the Federal and
State laws, regulations, and policies relevant to our review. Appendix B contains the details of
our audit scope and methodology, Appendix C contains the details of our statistical sampling
methodology, and Appendix D contains our sample results and estimates.

                                                    FINDINGS

The State agency did not always comply with (1) Federal requirements in claiming adoption
assistance payments for Federal reimbursement and (2) Federal and State requirements for
performing adoption assistance program background checks. Specifically:



2
    Each child is associated with one payment record.



Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   2
    •    For 110 of the 291 sampled records, the State agency provided inadequate documentation
         supporting the allowability of payments totaling $1,277,914 in FYs 2009 and 2010. On
         the basis of our sample results, we estimated unallowable payments of at least
         $17,499,083 during this period.

    •    For 185 of the 291 sampled records, the State agency provided inadequate documentation
         that required background checks had been performed. On the basis of our sample results,
         we estimated that the safety of 2,862 children may have been at risk.

The State agency claimed ineligible adoption assistance payments because it did not always
follow its established procedures for ensuring that claims met Federal requirements for financial
eligibility, background checks, and adoption assistance agreements. In addition, the State agency
did not have adequate controls in place to ensure that the required background checks were
completed for prospective foster and adoptive families and the documentation to support the
required background checks was retained.

THE STATE AGENCY CLAIMED UNALLOWABLE PAYMENTS

The State agency claimed unallowable adoption assistance payments related to 110 sampled
payment records. We determined the payments to be unallowable when the State agency’s
documentation meant to support the payment record did not support (1) financial eligibility
(69 sampled records), (2) any required background checks for the prospective foster or adoptive
family (50 sampled records), or (3) adoption assistance agreements (16 sampled records). 3

On the basis of our sample results, we estimated that the State agency claimed at least
$17,499,083 in unallowable payments. The State agency claimed ineligible adoption assistance
payments because it did not always follow its established procedures for ensuring that claims met
Federal requirements.

Inadequate Financial Eligibility Documentation

Section 473 of the Act establishes adoption assistance eligibility requirements. Specifically, a
child is eligible for Title IV-E adoption assistance payments if the child is eligible for
Supplemental Security Income (SSI) or meets other specific requirements. 4 One of these
requirements is that the income of the child’s family at the time the child was removed from the




3
 Twenty-five of these sampled payment records had more than one type of unallowable payment, but we counted
each unallowable payment only once in estimating total unallowable payments.
4
  A child may be eligible for Title IV-E adoption assistance if he or she is determined by the State to meet the
statutory definition of a child with special needs and at least one of the following: (1) meets AFDC requirements (as
in effect on July 16, 1996) at the time of removal from the home, (2) meets the requirements for SSI, (3) is the child
of a minor parent in foster care, or (4) was previously eligible for Title IV-E adoption assistance.




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)                   3
home did not exceed the ceiling for the former Aid to Families With Dependent Children
(AFDC) program (as in effect on July 16, 1996). 5,6
For 69 of the sampled records that resulted in unallowable payments, the State agency did not
provide adequate documentation of financial eligibility, which generally resulted when the State
agency:

      •    did not provide required documentation that showed eligibility for Title IV-E adoption
           assistance (e.g., evidence of AFDC or SSI eligibility) or

      •    provided documentation that showed ineligibility for Title IV-E adoption assistance (e.g.,
           evidence that income exceeded the AFDC threshold).

Lack of Background Check Documentation

The Adoption and Safe Families Act of 1997 (ASFA) 7 established a Federal requirement for
States to develop procedures for criminal records checks for any prospective foster and adoptive
parent before the foster or adoptive parent may be finally approved for the placement of a child.
Although ASFA required States to develop procedures for criminal records checks, it did not
require any specific type of criminal records check.

The Adam Walsh Child Protection and Safety Act of 2006 (Adam Walsh Act) 8 required an
approved Title IV-E State plan to develop procedures before a prospective foster or adoptive
parent may be finally approved for placement of a child for (1) fingerprint-based national
criminal history records checks for prospective foster and adoptive parents and (2) child abuse
and neglect registry records checks for all household adults.

For 50 sampled payment records, the State agency did not provide documentation for any
required background checks of the prospective foster or adoptive families. Thus, the adoption
assistance payments associated with these 50 sampled records were unallowable. We

5
  Section 473(a)(2)(A)(i)(I) of the Act specifies that a special-needs child may be ruled eligible for Title IV-E
adoption assistance if the child would have been eligible for assistance under the AFDC program when the child
resided in the home from which he or she was removed and (1) there was evidence that a judicial determination was
made that the child’s continuation in the home from which he or she was removed would be contrary to the child’s
welfare or (2) the child was removed from the home on the basis of a voluntary placement agreement and previously
received Title IV-E foster care maintenance payments.
6
  The Fostering Connection to Success and Increasing Adoption Act of 2008 (P.L. No. 110-351, Oct. 7, 2008),
section 402, delinked adoption assistance from AFDC eligibility, with new eligibility criteria to be phased in from
FY 2010 to FY 2018. Beginning in FY 2010, an applicable child was (1) at least 16 years of age at the time of the
adoption assistance agreement, or was any age if the child (2) had been in foster care under the responsibility of the
State for at least 60 consectutive months, or (3) was the sibling of an applicable child and was placed with the
sibling.
7
    ASFA is P.L. No. 105-89, effective November 19, 1997. Section 106 established section 471(a)(20)(A) of the Act.
8
 The Adam Walsh Act is P.L. No. 109-248. Section 152(a) amended sections 471(a)(20)(A) and (B) of the Act
effective October 1, 2006.



Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)                    4
determined that a sampled record’s adoption assistance payments were unallowable on the basis
of background checks only when (1) the State agency provided no evidence for completion of
any required background checks and (2) data provided by the State agency indicated that the
prospective foster or adoptive family was licensed or approved on or after November 19, 1997
(the date after which some type of background check was required for initial licensing or
approval).

Inadequate Adoption Assistance Agreement Documentation

Adoption assistance payments are available on behalf of eligible children if the State enters into
an adoption assistance agreement with prospective adoptive parent(s) prior to the finalization of
the adoption, and the agreement must be signed by all parties (45 CFR 1356.40).

For 16 of the sampled records that resulted in unallowable payments, the State agency did not
provide adequate documentation of adoption assistance agreements, which generally resulted
when the State agency:

    •   did not provide an adoption assistance agreement,

    •   provided an adoption assistance agreement that did not include signatures from all
        required parties, or

    •   provided an adoption assistance agreement that was signed after the final decree of
        adoption.

INADEQUATE BACKGROUND CHECKS MAY HAVE PLACED THE SAFETY OF
CHILDREN AT RISK

ACF approved the State agency’s Title IV-E plan, which cites Federal law, Connecticut General
Statute, and Regulations of Connecticut State Agencies regarding background check
requirements for foster and prospective adoptive families. Appendix A details pertinent Federal
and State laws, regulations, and policies related to background checks and how they changed
over the period pertinent to our review.

The State agency provided adequate documentation for required background checks for 106 of
the 291 sampled records. However, the remaining 185 sampled records had either no evidence
(50 sampled records) or inadequate evidence (135 sampled records) of required background
checks; examples of required background checks included State criminal records checks,
national criminal records checks, and child abuse and neglect registry checks.

We identified the following examples of inadequate documentation of background checks:

    •   The State agency did not provide background check documentation for a child’s
        biological father (a known drug abuser), whose parental rights had been legally
        terminated, yet still lived in the child’s adoptive household.




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   5
    •   The State agency did not provide child abuse and neglect registry check documentation
        for an adoptive mother’s mother, who lived in the household and whom the State agency
        terminated as a foster parent because of medical neglect prior to the sampled child’s
        placement.

    •   A State agency request for State police background checks, based on name and date of
        birth, reversed the dates of birth of one child’s adoptive parents, and the response for both
        parents was “no record.” However, an earlier State police check of the adoptive father,
        with his correct date of birth, showed that he had a record of five arrests.

On the basis of our sample results, we estimated that the safety of 2,862 of the 4,566 children
(63 percent) covered by our review may have been at risk. The State agency did not have
adequate controls in place to ensure that the required background checks were completed for
prospective foster and adoptive families and the documentation to support the required
background checks was retained. Specifically, the State agency used a number of checklists to
ensure that the required background checks were completed; however, the checklists were not
always consistent with the type of background check required.

                                       RECOMMENDATIONS

We recommend that the State agency:

    •   refund to the Federal Government $17,499,083 in estimated unallowable payments
        claimed without adequate documentation;

    •   discontinue claiming Title IV-E adoption assistance reimbursement for the children
        identified in the 110 sampled adoptee payment records;

    •   strengthen and implement controls to ensure full compliance with financial and other
        eligibility requirements; and

    •   strengthen and implement controls, such as but not limited to accurate and appropriate
        checklists, to ensure full compliance with background check requirements.

                                  STATE AGENCY COMMENTS

In written comments on our draft report, the State agency stated that it would resolve all
outstanding issues with ACF. The State agency’s comments are included in their entirety as
Appendix E.




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   6
       APPENDIX A: HISTORICAL BACKGROUND CHECK REQUIREMENTS

This appendix details the criteria that we used to determine State agency compliance with
Title IV-E adoption assistance background check requirements.

We accepted only authoritative support for each required background check (i.e., documentation
from the agency that conducted the background check). For example, we did not accept State
agency narratives or checklists referring to results of background checks conducted by another
agency.

ACF approved the State agency Title IV-E plan, which cites Connecticut General Statute (CGS)
17a-151 and Regulations of Connecticut State Agencies (RCSA) 17a-145-152 regarding State
background check requirements for foster and prospective adoptive families. In addition, the
Attorney General of the State of Connecticut (CT AG) stated that the State agency licenses foster
parents under CGS 17a-114. The latter statute governs three types of licenses or approvals
pertinent to our audit:

    1. licenses issued directly by the State agency to foster and prospective adoptive parent(s),
       which we call “regular”;

    2. approval issued to foster and prospective adoptive parent(s) by a private child-placing
       agency directly licensed by the State agency, which we call “CPA”; and

    3. licenses issued directly by the State agency only to foster and prospective adoptive
       parent(s) who is (are) blood relative(s) of the child(ren) being placed, which we call
       “relative.”

Date range headings follow with discussion of applicable laws, regulations, or State agency
policies in effect.

Prior to November 19, 1997: Prior to November 19, 1997, there were no Federal requirements
for background checks of foster or prospective adoptive families. The “Adoption and Safe
Families Act of 1997” (ASFA) amended section 471(a)(20)(A) of the Act, effective
November 19, 1997, to begin requiring such checks. We, therefore, did not require any
background checks for licenses or approvals issued prior to November 19, 1997.


November 19, 1997 – September 30, 2001: ASFA required “criminal records checks” but did
not specify what type of check must be conducted. RCSA 17a-145-152 (for regular licenses) and
RCSA 17a-150-110 (for CPA approvals), both effective February 20, 1997, required that foster
and prospective adoptive parents have no record of certain criminal violations or substantiated
child abuse or neglect, but did not specify what type of records check must be conducted. We,
therefore, accepted authoritative support for any type of criminal records check for initial regular
licenses and initial CPA approvals issued on or after November 19, 1997, and prior to October 1,
2001 (see period beginning October 1, 2001, below).


Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   7
RCSA 17a-114-16(a)(3), effective for relative licenses March 22, 1995, required that “[s]uch
relative attests that he and any adult living within the household have not been convicted of any
crime or arrested for a felony against a person, for injury or risk of injury to or impairing the
morals of a child, or for the possession, use or sale of any controlled substance.” We, therefore,
required support for such attestation for initial relative licenses issued on or after November 19,
1997, and prior to October 1, 2001 (see period beginning October 1, 2001, below).

October 1, 2001 – June 30, 2002: CGS 17a-114, as amended by P.A. 01-159, section 4,
effective October 1, 2001, required State Police Bureau of Identification (SPBI) and Federal
Bureau of Investigation (FBI) records checks for all foster parents. In addition, the same
amendment established a requirement to check the State child abuse registry (also referred to as
Child Protective Services (CPS) check) for all foster and prospective adoptive parents. We,
therefore, required SPBI, FBI, and CPS records checks for all foster and prospective adoptive
parents for initial licenses or approvals issued on or after October 1, 2001.

July 1, 2002 – September 30, 2003: State agency Policy 41-17-8, “Renewal of a License,” and
State agency Policy 41-17-13, “Content of Licensing Record,” both effective July 1, 2002,
required biennial license renewal SPBI and CPS records checks for all household members at
least age 16. We, therefore, required SPBI and CPS records checks for all household members at
least age 16 for renewals of regular (which included relatives since July 1, 2001) licenses issued
on or after July 1, 2002.

October 1, 2003 – September 30, 2006: CGS 17a-114 and CGS 17a-151, as amended by
P.A. 03-243, sections 7 and 8, respectively, both effective October 1, 2003, broadened the scope
of the statute to include the requirement of SPBI, FBI, and CPS records checks for all household
members at least age 16 for CPA approvals as well as regular licenses. We, therefore, required
SPBI, FBI, and CPS records checks for all household members at least age 16 for all initial foster
and prospective adoptive licenses and approvals on or after October 1, 2003. In addition, we
required SPBI and CPS records checks, and FBI records checks if none had previously been
conducted for the household member, for all household members at least age 16 for all renewals
of foster and prospective adoptive licenses and approvals issued on or after October 1, 2003.

October 1, 2006 – September 30, 2010 (end of period under review): Sections 471(a)(20)(A)
and (B) of the Act, as amended by P.L. No. 109-248, “Adam Walsh Child Protection and Safety
Act of 2006,” effective October 1, 2006, section 152(a) required fingerprint-based national
criminal history records checks for prospective foster and adoptive parents, and child abuse and
neglect registry records checks for all household adults. We, therefore, required, in addition to
requirements discussed above, that FBI records checks be fingerprint based for all licenses and
approvals issued on or after October 1, 2006.




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   8
                   APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $49,481,645 that the State agency claimed for reimbursement of adoption
assistance maintenance payments on behalf of 4,566 children during FYs 2009 and 2010. We
focused our review on the risk areas we had identified as a result of a prior OIG Title IV-E
review and A-133 Single State Audit findings in Connecticut. We evaluated compliance with
selected Title IV-E adoption assistance requirements. This report focuses on selected risk areas
and does not represent an overall assessment of all claims submitted by the State agency for
Title IV-E reimbursement.

We limited our review of the State agency’s internal controls to those applicable to the
Title IV-E adoption assistance areas of review because our objective did not require an
understanding of all internal controls over the State agency’s foster and adoptive services. Our
review enabled us to establish reasonable assurance of the authenticity and accuracy of the data
obtained from the State agency’s detailed transactions file, and we reconciled the file to amounts
reported to ACF.

We conducted our fieldwork from October 2012 through February 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal and State laws and regulations;

    •   reviewed the State agency’s policies and procedures;

    •   obtained a Microsoft Access database from the State agency that included foster care and
        adoption assistance maintenance payments and subsequent adjustments;

    •   reconciled State agency transaction detail to ACF’s quarterly expenditure reports for
        adoption assistance maintenance payment reimbursements;

    •   selected a stratified sample of 291 adoptee payment records (Appendix C) and:

            o requested sampled adoptee case files from the State agency for review,

            o determined for each sampled adoptee case file whether evidence for financial
              eligibility and adoption assistance agreements was adequate,

            o determined for each sampled adoptee case file whether evidence of completion of
              required background checks for preadoptive families was adequate,

            o discussed inadequate documentation with State agency officials and reviewed
              additional documentation provided to OIG, and


Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   9
            o analyzed and summarized the results of the sample;

    •   used our sample results to estimate unallowable reimbursements for adoption assistance
        maintenance payments and the number of children whose safety may have been at risk
        because they were placed in preadoptive families with inadequately supported
        background checks (Appendix D); and

    •   discussed the results of our review with State agency and ACF officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   10
                  APPENDIX C: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of State agency foster care and adoption assistance maintenance
payments and subsequent adjustments made October 1, 2008, through June 30, 2012.

SAMPLING FRAME

The sample frame was an Access database of 4,566 adoptee payment records totaling
$49,481,645.

SAMPLE UNIT

The sample unit was an adoptee payment record.

SAMPLE DESIGN

We used a stratified random sample as follows.

                                                               Number of
                                                                Adoptee
                                                                Payment             Federal Share
     Stratum            Description of Stratum                  Records              of Payments
        1            Payments > $0 and < $9,814                  1,273                $6,441,505
                     Payments >= $9,814 and
         2                                                         3,202               40,710,195
                     <= $20,000
         3           46 judgmentally selected 9
      (100%          plus 45 with payments                            91                2,329,945
     review)         > $20,000
       Total                                                       4,566              $49,481,645

SAMPLE SIZE

We randomly selected 100 sample units from both stratum 1 and stratum 2. We selected all 91
sample units from stratum 3. Our total sample size was 291 sample units.




9
  Before we designed our sample, we judgmentally selected and reviewed 46 payment records to determine whether
a problem existed that warranted the review of a statistical sample. Although some of these 46 payment records met
the criteria for being included in strata 1 and 2, we removed them from the sampling frame before we selected our
random sample.




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)               11
SOURCE OF RANDOM NUMBERS

We used the OIG, Office of Audit Services (OAS), statistical software to generate the random
numbers.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in each stratum. After generating 100 random
numbers for stratum 1 and 100 random numbers for stratum 2, we selected corresponding frame
items for review. We selected all 91 sample units from stratum 3.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the Federal share of total unallowable payments
for Title IV-E adoption assistance maintenance payments made from October 1, 2008, through
September 30, 2010.

We also used the OAS statistical software to estimate the number of children whose safety may
have been at risk.




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)   12
                    APPENDIX D: SAMPLE RESULTS AND ESTIMATES

                         UNALLOWABLE PAYMENTS CLAIMED
                                                        Number of                                 Value of
                   Frame   Value of   Sample  Value of  Disallowed                               Disallowed
 Stratum            Size    Frame      Size   Sample    Payments                                 Payments
      1            1,273   $6,441,505   100    $483,715     41                                     $203,830
      2            3,202   40,710,195   100   1,249,122     45                                      556,513
      3               91    2,329,945    91   2,329,945     24                                      517,571
Total              4,566 $49,481,645    291  $4,062,782    110                                   $1,277,914


                              Estimated Total Disallowed Payments
                     (Limits Calculated for a 90-Percent Confidence Interval)

                                    Point estimate       $20,931,869
                                    Lower limit           17,499,083
                                    Upper limit           24,364,654


  INADEQUATE BACKGROUND CHECKS MAY HAVE PLACED THE SAFETY OF
                      CHILDREN AT RISK

                                                  Number With               Number With             Total
                                               Disallowed Payments           Incomplete           Sampled
                   Frame         Sample           Due to Lack of            Background           Children at
 Stratum            Size          Size         Background Checks               Checks            Safety Risk
    1              1,273           100                  14                        45                  59
    2              3,202           100                  25                        39                  64
    3                 91            91                  11                        51                  62
Total              4,566           291                  50                       135                 185


                Estimated Total Children Whose Safety May Have Been at Risk
                    (Limits Calculated for a 90-Percent Confidence Interval)

                                    Point estimate               2,862
                                    Lower limit                  2,593
                                    Upper limit                  3,131




Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)        13
                            APPENDIX E: STATE AGENCY COMMENTS

                       DEPARTMENT of CHILDREN and FAMILIES
                             Making a Difference for Children, Families and Communities

 Joette Katz                        OFFICE OF THE COMMISSIONER                                      Dannel P . Malloy
Commissioner                                                                                           Governor



      September 27, 2013


      Department of Heath and Human Services 

      Office of the Inspector General 

      Office of Audit Services, Region 1 

      JFK Federal Building 

      15 New Sudbury Street, Room 2425 

      Boston, MA 02203 

      Attention: George A. Nedder, Acting Regional Inspector General for Audit Services 


      RE: Connecticut Often Did Not Comply With Federal Adoption Assistance 

      Requirements 



      Dear Mr. N edder:

      Thank you for the time and effort you and your staff have devoted to auditing the
      Department of Children and Families' Title IV -E claims for reimbursement of adoption
      assistance costs. We have reviewed your draft recommendations and understand the
      issues you have identified. We will resolve all outstanding issues with the
      Administration for Children and Families.




      Cc: 	    Fernando Mufiiz, Deputy Commissioner
               Cindy Butterfield, Chief Fiscal Officer
               Susan Hamel, Director, Revenue Enhancement Division
               Barbara Claire, Agency Legal Director




                                      STATE OF CONNECTICUT 

                                 Phone (860) 550-6300- Fax (860) 560-7086 

                            505 Hudson Street, Hartford, Connecticut 06106-7107 

                                    E-Mail: commissioner.dcf@ct.gov 

                                             www.ct.gov/dcf 

                                        An Equal Opportunity Employer 


   Connecticut Often Did Not Comply With Federal Adoption Assistance Requirements (A-01-12-02507)            14
